WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1181
Waverly Scott Kaffaga, as Executor of the Estate of Elaine Anderson Steinbeck

The Estate of Thomas Steinbeck, Gail Knight Steinbeck and The Palladio Group, Inc.

v.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.

111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

111 I am a member of the Bar of the Supreme Court of the United States.
111 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

April 21, 2020

(Type or print) Name

Susan J. Kohlmann
❑ Mr.

Firm

111 Ms.

111 Mrs.

111 Miss

Jenner & Block LLP

Address

919 Third Avenue, 38th Floor

City & State
Phone

New York, NY

212-891-1690

Zip 10022
Email

skohlmann@jenner.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Matthew J. Dowd, Dowd Scheffel PLLC

